U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 26, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Tina Neville v. Janet Dhillon, Chair,
Equal Employment Opportunity Commission, et al,
S.Ct. No. 19-690

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
27, 2019, and placed on the docket on November 29, 2019. The government's response is due
on December 30, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 29, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0690
NEVILLE, TfNA
JANET DHILLON, CHAIR, EEOC, ET AL.

MICHAEL D.J. EISENBERG
LAW OFFICE OF MICHAEL D.J. EISENBERG
700 12TH STREET, N.W.
SUITE 700
WASHINGTON, DC 20005
202-558-6371
MICHAEL@EISENBERG-LAWOFFICE.COM

